AMERICAN CIVIL LIBERTIES UNION
FOUNDATION

American Civil Liberties Foundation
Voting Rights Project
National Office
125 Broad Street, 18th Floor
New York, NY 10004-2400
(212) 549-2500
aclu.org

August 12, 2020
Via Electronic Filing and E-mail
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Schwab v. Fish (No. 20-109)

Dear Mr. Harris:
Respondents in the above-captioned matter write to request a 60-day extension of
Respondents’ time to file a brief in opposition to the petition for writ of certiorari
from September 2, 2020, to November 2, 2020. The petition for a writ of certiorari
was submitted on July 18 and docketed on August 3, 2020.
Respondents seek this extension in light of counsel’s competing personal and
professional obligations. First and foremost, the current public health emergency
related to COVID-19 has forced the closure of and/or significant restrictions on
capacity at each of the offices where Respondents’ counsel normally work. The
public health emergency has also forced closures of schools, camps, and child care
facilities, which requires Respondents’ counsel to care for minor children during this
time. Meanwhile, in this context of reduced capacity, counsel for Respondents
remain committed to other upcoming filings.
Previously scheduled personal and professional commitments, as well as new
challenges resulting from the COVID-19 public health emergency and resulting
disruptions to professional and personal life, during the initial 30-day response
period would make it difficult for counsel to prepare the response in this case.

Petitioners through counsel have indicated they do not object to this request.
Thank you for your attention to this matter.
Respectfully,
/s/ Dale Ho
Dale Ho
Counsel for Respondents
Steven Wayne Fish, Donna Bucci,
Charles Stricker, T.J. Boynton,
Douglas Hutchinson, and
Kansas League of Women Voters.
cc:

Toby Crouse, Counsel for Petitioners
Jeffrey Atkins, Deputy Clerk
Danny Bickell, Deputy Clerk

/s/ Mark Johnson
Mark Johnson
Counsel for Respondent
Parker Bednasek

